No:

IN THE
SUPREME COURT OF THE UNITED STATES

OCTOBER TERM,-2020
DIETER RIECHMANN,
Petitioner,
v.
SECRETARY, FLORIDA DEPARTMENT OF CORRECTIONS,
Respondent.

CERTIFICATE OF SERVICE

I certify that on this 7th day of October, 2020, in accordance with Sup. CT. R.
29, copies of the (1) Petition for Writ of Certiorari, (2) Motion for Leave to Proceed In
Forma Pauperis, (3) Certificate of Service, and (4) Declaration Verifying Timely
Filing, were served by third party commercial carrier for delivery within three days
upon Richard L. Polin, Assistant Attorney General, Office of the Attorney General, 1

S-E. 8rd Avenue,-‘Suite 900, Miami, Florida 33131.

MICHAEL CARUSO

FEDERAL PUBLIC DEFENDER
Fort Lauderdale, Florida By:__Janice L. Bergmann
October 7, 2020 Janice L. Bergmann

Assistant Federal Public Defender
One East Broward Blvd., Suite 1100
Fort Lauderdale, Florida 33301
Telephone No. (954) 356-7436
